TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Examinations of Partnerships Often Do Not
                  Follow All Procedures Required by the Tax
                 Equity and Fiscal Responsibility Act of 1982



                                           July 31, 2006

                              Reference Number: 2006-30-106




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     DEPARTMENT OF THE TREASURY
                                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                      July 31, 2006


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                            Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                         Final Audit Report – Examinations of Partnerships Often Do Not
                                  Follow All Procedures Required by the Tax Equity and Fiscal
                                  Responsibility Act of 1982 (Audit # 200530021)

 This report presents the results of our review of the Internal Revenue Service’s (IRS)
 examination of partnerships that require the use of the Tax Equity and Fiscal Responsibility Act
 of 1982 (TEFRA)1 procedures. The overall objective of this review was to determine whether
 examinations initiated under the TEFRA were conducted in accordance with statutory and
 administrative procedures. In general, the term TEFRA is used to describe a set of rules (both
 statutory and administrative) that affect how the IRS conducts examinations of tax returns from
 partnerships and certain other entities. There are important reasons for the IRS to ensure these
 rules are followed during examinations. Most importantly, perhaps, is that procedural errors can
 affect the validity of assessments, infringe on taxpayer rights, and result in improper disclosures
 of tax information.

 Synopsis
 Prior to enactment of the TEFRA, partnership examinations were in many ways examinations of
 the individual partners. Each partner’s return was examined separately, and the determination
 and treatment of partnership items for one partner was not binding on any other partner. For
 those partnerships subject to the TEFRA, the treatment of partnership items is determined at the
 entity level in one unified examination. Among other things, the TEFRA requires that (1) every
 partnership have a tax matters partner who serves as a liaison with the IRS, (2) tax adjustments to

 1
     Pub. L. No. 97-248, Title IV, Section 402(a), 96 Stat. 648.
                  Examinations of Partnerships Often Do Not Follow All Procedures
                  Required by the Tax Equity and Fiscal Responsibility Act of 1982



the partnership are made in one examination and are binding to all partners, and (3) special
notices are issued and procedures followed by the IRS at the beginning and end of examinations.
Despite IRS controls and emphasis on case file documentation, additional steps must be taken to
ensure procedures are properly followed when partnership examinations are initiated. We
evaluated case files from 60 partnership return examinations closed between October 1, 2003,
and June 30, 2005, by examiners located in IRS offices from across the country. One or more
required procedures were not followed in 55 percent (33 out of 60) of these examinations. For
example, in two cases, examiners should have used TEFRA statutory and administrative
procedures to initiate and conduct the examinations, but information in case files indicated
non-TEFRA procedures were used. Consequently, the case files did not contain any
documentation showing the partnerships and their partners received the notices they were
entitled to under the Internal Revenue Code, and, had there been any assessments, such
assessments may not have been valid.2 We also identified other problems, including issuance of
a Notice of Beginning of Administrative Proceeding (Letter 1787) well after examinations had
started and partnership records had been examined.3
A combination of factors contributed to the concerns identified in our case reviews. First,
examiners need to take better advantage of IRS resources when conducting partnership
examinations. We used four IRS job aids to review the cases in our sample. While the Internal
Revenue Manual4 does not specifically require examiners to use the job aids, the aids are readily
accessible for examiners online through the IRS Intranet. We saw limited documentation in case
files that these resources were used, even though they can provide a reliable and consistent
method for directing and guiding examiners through all phases of the partnership examination
process.
Second, quality controls could be strengthened. IRS guidelines require both the Small
Business/Self-Employed (SB/SE) Division5 and Large and Mid-Size Business (LMSB) Division6
to review a sufficient sample of closed examinations through their respective quality
measurement systems. Although the LMSB Division quality measurement system evaluates how
well examiners follow TEFRA procedures, the SB/SE Division quality measurement system
does not include such evaluations. Consequently, management may not be aware of the
procedural problems.


2
  In both instances, the examinations resulted in no change to the partnership and the partners’ tax liabilities.
3
  A Letter 1787 is required to be issued under the Internal Revenue Code and serves as the official notification from
the IRS that it is beginning a TEFRA examination.
4
  This is an official compilation of procedures, instructions, and guidelines that govern the operational features of the
IRS; it includes guidance that examiners are to use in conducting both TEFRA and non-TEFRA examinations.
5
  The taxpayers served by the SB/SE Division include small businesses and self-employed individuals.
6
  The taxpayers served by the LMSB Division include corporations and partnerships with assets of more than
$10 million.
                                                                                                                       2
                 Examinations of Partnerships Often Do Not Follow All Procedures
                 Required by the Tax Equity and Fiscal Responsibility Act of 1982



Third, examiners and managers should be held accountable for following TEFRA procedures.
Prior to our review, the LMSB Division recognized the need to better hold its examiners and
managers accountable for properly documenting work and introduced an Administrative
Procedures Standard (APS) to its quality measurement system in March 2003. While the APS
does not specifically address TEFRA procedures, it does require examiners and managers to
provide documentation that many non-TEFRA statutory and administrative procedures are
followed in planning, initiating, conducting, and closing examinations. Documentation
supporting that non-TEFRA procedures are followed is captured on the Administrative
Procedures Standard Input Document (Form 13327).7 Modifying the APS to cover TEFRA
procedures, and incorporating it in the SB/SE Division quality measurement system, would
provide a mechanism for enhancing accountability and increasing assurances that TEFRA
procedures are followed in all partnership examinations.

Recommendations
We recommended the Director, Quality Assurance and Performance Management, LMSB
Division, modify the APS and related Form 13327 to cover TEFRA examination procedures.
We recommended the Commissioners, LMSB and SB/SE Divisions, initiate actions to revise the
Internal Revenue Manual so examiners are required to complete, and include in partnership
examination case files, appropriate TEFRA job aids. Additionally, the Director, Examination,
SB/SE Division, should evaluate how well examiners are complying with TEFRA examination
procedures in reviews conducted under the SB/SE Division quality measurement system and
implement a process that will better hold examiners and their managers accountable for
following TEFRA procedures.

Response
IRS management agreed with our recommendations and will be taking appropriate corrective
actions to better ensure examiners and managers are accountable for following TEFRA
procedures. In the LMSB Division, the Form 13327 will be changed to cover TEFRA
examination procedures and an interim guidance memorandum will be jointly issued with the
SB/SE Division instructing examiners to complete and include an updated TEFRA Procedures
Check List in case files. In the SB/SE Division, quality controls will be strengthened by
evaluating how well examiners are adhering to TEFRA examination procedures and developing
guidelines to assist TEFRA reviewers in conducting their evaluations. Additionally, SB/SE
Division management will supplement TEFRA lead sheets used by examiners with a revised

7
  Form 13327 is required to be completed during the course of every examination, self-certified by examiners and
managers that listed procedures were followed, and included in case files so it can be used in subsequent managerial
reviews. Form 13327 is reproduced, in part, in Appendix IV.
                                                                                                                   3
              Examinations of Partnerships Often Do Not Follow All Procedures
              Required by the Tax Equity and Fiscal Responsibility Act of 1982



TEFRA Procedures Check List that will require managers and examiners to provide
documentation showing TEFRA procedures were followed. Management’s complete response
to the draft report is included as Appendix V.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8500.




                                                                                        4
                    Examinations of Partnerships Often Do Not Follow All Procedures
                    Required by the Tax Equity and Fiscal Responsibility Act of 1982




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Examiners Have a Critical Role in Initiating Examinations in
          Accordance With Administrative and Statutory Procedures ........................Page 3
          Additional Steps Are Needed to Ensure Statutory and
          Administrative Procedures Are Followed When Partnership
          Examinations Are Initiated ...........................................................................Page 5
                    Recommendations 1 through 4:...........................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Administrative Procedures Standard Input Document ........Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 16
                 Examinations of Partnerships Often Do Not Follow All Procedures
                 Required by the Tax Equity and Fiscal Responsibility Act of 1982




                                             Background

Partnerships are associations of two or more persons or entities, such as corporations or other
partnerships, that join together to carry on a trade or business. Each partner generally contributes
money, property, labor, or specialized skills in exchange for a share of the profits and losses
from the partnership. Although partnerships are required to file a U.S. Return of Partnership
Income (Form 1065) annually, no taxes are generally paid with these tax returns. The partners
are responsible for reporting and paying any applicable taxes on their respective income tax
returns for their share of the partnership’s income. Because partnership income, losses, credits,
and other tax items are generally distributed untaxed to the respective partners, partnerships are
commonly referred to as flowthrough entities.
From a practical standpoint, partnerships have long provided a very popular way to shelter
income from taxation because they have minimum legal startup formalities and costs, as well as
the legal capacity to pass on to their partners losses that can be used to offset wages and other
income sources of partners. Moreover, changes in the legal and regulatory environment in the
1990s contributed to making partnerships one of the fastest growing segments of all tax return
filers. Specifically, these changes included the creation of Limited Liability Companies1 and the
issuance of so-called Check-the-Box Regulations2 by the Department of the Treasury. Currently,
the Internal Revenue Service (IRS) Small Business/Self-Employed (SB/SE) Division is
responsible for managing most of the programs and activities devoted to partnerships, although
the Large and Mid-Size Business (LMSB) Division3 serves partnerships reporting more than
$10 million in assets.
Because partnership losses can offset income sources of partners, in the 1970s and early 1980s,
some taxpayers began using partnerships as a vehicle to take advantage of unintended loopholes
in the tax laws. Enactment of the Tax Equity and Fiscal Responsibility Act of 1982 (TEFRA)4
by Congress was intended, in part, to close these loopholes by including in the Internal Revenue
Code (I.R.C.) statutory procedures that affected how the IRS conducts examinations of
partnerships and certain other entities that meet the criteria under the TEFRA. To guide and
assist its examiners and other personnel in complying with the TEFRA statutory procedures, the


1
  This is a business entity that offers its owners the advantage of limited liability (like corporations) and
partnership-like taxation, in which profits are passed through to the owners and taxed on their personal income tax
returns.
2
  United States Treasury Regulations allow most unincorporated businesses to elect, by checking a box, whether
they will be taxed as a corporation or a flowthrough entity, such as a partnership, for Federal income tax purposes.
3
  The taxpayers served by the SB/SE Division include small businesses and self-employed individuals, while
taxpayers served by the LMSB Division include corporations and partnerships with assets of more than $10 million.
4
  Pub. L. No. 97-248, Title IV, Section 402(a), 96 Stat. 648.
                                                                                                            Page 1
                  Examinations of Partnerships Often Do Not Follow All Procedures
                  Required by the Tax Equity and Fiscal Responsibility Act of 1982



IRS developed a set of administrative procedures that are reflected in the Internal Revenue
Manual (IRM).5
Prior to enactment of the TEFRA, partnership examinations were in many ways examinations of
the individual partners. Each partner’s return was examined separately, and the determination
and treatment of partnership items for one partner was not binding on any other partner.
Additionally, the statute of limitations for assessment of taxes was tied to the individual partners’
returns; so, for the IRS to extend the statute of limitations to facilitate completing the
examination of a partnership return, each partner had to sign a consent form. This process
resulted in logistical problems for the IRS and created significant burdens on examiners and the
private sector, especially if the partnership had numerous partners who were geographically
dispersed across the country and filed returns at different IRS processing centers.
For those partnerships subject to the TEFRA, the treatment of partnership items is determined at
the entity level in one unified examination. Among other things, the TEFRA provides that
(1) every partnership have a tax matters partner (TMP) who serves as a liaison with the IRS,
(2) tax adjustments to the partnership are made in one examination and are binding to all
partners, and (3) special notices are issued and procedures followed by the IRS at the beginning
and end of examinations. Although some TEFRA statutory and administrative procedures have
been modified over the years,6 current TEFRA procedures generally apply to partnerships that
have more than 10 partners or have partners that are S corporations, other partnerships, or
Limited Liability Companies that filed partnership returns.
This review was performed in the IRS LMSB and SB/SE Divisions, which are respectively
headquartered in Washington, D.C., and New Carrollton, Maryland, during the period
September 2005 through March 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




5
  The IRM is an official compilation of procedures, instructions, and guidelines that govern the operational features
of the IRS; it includes guidance that examiners are to use in conducting both TEFRA and non-TEFRA examinations.
6
  For example, Congress enacted legislation in 1996 that eliminated the need to treat S corporations as TEFRA
entities for tax periods ending after December 31, 1996. An S corporation, also known as a Subchapter S
corporation, is a popular form of business entity for a small business that provides limited liability for its
shareholders and partnership-like taxation.
                                                                                                            Page 2
               Examinations of Partnerships Often Do Not Follow All Procedures
               Required by the Tax Equity and Fiscal Responsibility Act of 1982




                                Results of Review

Examiners Have a Critical Role in Initiating Examinations in
Accordance With Administrative and Statutory Procedures
Many of the administrative and statutory procedures required to initiate a TEFRA examination
are the same as those required to initiate a non-TEFRA examination. In both types of
examinations, IRS examiners review tax return information to identify questionable items and
indications of unreported income. If questionable items are identified or there are indications of
unreported income, the examiner will schedule an appointment with the taxpayer, or his or her
designated representative, and request information needed to resolve the questionable items. In
addition to these administrative procedures, examiners are required by the I.R.C. to inform
taxpayers of their rights at the start of the examination. The statutory procedures under the
I.R.C. state, among other things, that taxpayers have the rights to know why the IRS is asking for
information about their tax returns and to authorize another person, such as an accountant or
attorney, to work with the examiner during the examination.

The initiation process for TEFRA examinations requires examiners to complete
additional steps to comply with administrative and statutory procedures
Although there are similarities in the processes used to initiate TEFRA and non-TEFRA
examinations, there are steps required to initiate TEFRA examinations that are not required for
non-TEFRA examinations. These steps include:
   •   Determining for each tax year that will be examined whether the partnership is in fact
       subject to the TEFRA. This step is required because a partnership can be subject to the
       TEFRA in 1 tax year and not in another. This determination can involve multiple steps
       and is emphasized in IRS procedures as being critically important for ensuring additional
       tax assessments, if any, resulting from an examination are valid under the tax law.
   •   Identifying a qualified TMP. This step can involve considering as many as 65 separate
       items. As the designated representative of the TEFRA partnership, the TMP performs
       several important duties that may include entering into formal agreements with the IRS,
       which will bind all partners in the partnership to additional tax assessments resulting
       from the examination. Consequently, if a TMP is not properly identified, agreements
       entered into on behalf of the partnership may not be valid under the tax law. Just as
       many taxpayers whose tax returns are selected for examination execute a Power of



                                                                                           Page 3
                  Examinations of Partnerships Often Do Not Follow All Procedures
                  Required by the Tax Equity and Fiscal Responsibility Act of 1982



         Attorney7 and Declaration of Representative (Form 2848) to have an accountant or
         attorney work with the IRS examiner through the examination process, a TMP may
         similarly take advantage of this right extended under the tax law. Although the same
         Form is used to designate a power of attorney in all examinations, IRS procedures require
         examiners to add special statements to the Form 2848 when it involves a TEFRA
         partnership.
    •    Providing the partnership with official notification by mail that the IRS is beginning a
         TEFRA examination. To meet this statutory requirement, the IRS instructs its examiners
         to both hand-deliver and forward by certified mail a Notice of Beginning of
         Administrative Proceeding (Letter 1787) to the TMP. The Letter 1787 is required to be
         issued under the I.R.C. and serves as the official notification from the IRS that it is
         beginning a TEFRA examination. In addition, examiners are instructed by IRS
         procedures to complete control documents needed for establishing the TEFRA
         partnership examination on the IRS Partnership Control System 60 calendar days after
         issuing the Letter 1787 to the TMP. The IRS uses the Partnership Control System to,
         among other things, generate and issue TEFRA notices, such as the Letter 1787, to other
         partners.
These three different processes make initiating a TEFRA examination more detailed and can
place greater burden on examiners because they require completion of additional administrative
and statutory procedures.

Management controls have been developed to help examiners properly initiate
partnership examinations
Ultimately, the IRS relies on its examiners to ensure partnership examinations are properly
initiated. To assist examiners in meeting this responsibility, the IRS has developed a system of
controls that are in line with the Government Accountability Office Standards for Internal
Control in the Federal Government.8 At the top of the agency, broad policy statements provide
guidance nationwide to IRS personnel that are involved in IRS programs and activities. Of the
189 IRS Policy Statements, 34 cover examination issues, such as taxpayer rights and examiner
responsibilities.
At the divisional level, the quality measurement staff in the LMSB Division review samples of
examination cases to assess the degree to which LMSB Division examiners complied with
TEFRA procedures when initiating partnership examinations. In addition to reviews by the
LMSB Division quality measurement staff, mid-level managers in both the LMSB and SB/SE
Divisions may evaluate ongoing work in open TEFRA examinations during their operational

7
  A power of attorney is a legal instrument that gives legal authority to another person (called an agent or
attorney-in-fact) to make property, financial, and other legal decisions for the principal.
8
  GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                                               Page 4
                Examinations of Partnerships Often Do Not Follow All Procedures
                Required by the Tax Equity and Fiscal Responsibility Act of 1982



reviews. Operational reviews are required to be performed at least annually to ensure work is
being done in conformance with procedures. These processes serve as a quality control by
identifying managerial, technical, and procedural problems and providing a basis for corrective
actions.
First-line managers are an important control component because they are responsible for the
quality of work performed by the examiners they supervise. They use a variety of techniques to
ensure examiners’ work is meeting acceptable standards and procedures are followed in
planning, initiating, and conducting TEFRA examinations. These techniques, as we have
previously reported,9 include observations and discussions with examiners and reviews of work
during examinations and after they are closed. Through these observations, discussions, and
reviews, first-line managers attempt to identify problems so examiners can take prompt
corrective actions.
The IRM is another important control component because it contains the official compilation of
detailed instructions and explanations of the statutory and administrative procedures for
examiners to follow in conducting both TEFRA and non-TEFRA examinations. Throughout the
IRM, examiners are instructed to properly document in examination case files all aspects of their
work during the planning, initiating, conducting, and closing phases of examinations. This
documentation is important because it provides the principal evidence that procedures were
followed, as well as the foundation for other control processes such as managerial reviews and
the quality measurement systems. The importance of examiner documentation is further
emphasized in management directives, examiner training materials, and the quality measurement
standards.

Additional Steps Are Needed to Ensure Statutory and Administrative
Procedures Are Followed When Partnership Examinations Are
Initiated
Despite the IRS’ controls and its emphasis on case file documentation, additional steps must be
taken to ensure procedures are properly followed when partnership examinations are initiated.
We evaluated case files from 60 partnership return examinations closed between
October 1, 2003, and June 30, 2005, by examiners located in IRS offices from across the country
and found that 1 or more required procedures were not followed in 55 percent (33 out of 60) of
these examinations. There are important reasons for the IRS to ensure procedural errors such as
the ones we identified are avoided in the future. Most importantly, perhaps, is that procedural
errors can affect the validity of assessments, result in improper disclosures of tax information,
and infringe on taxpayers’ rights. Although we did not use statistically valid sampling


9
 Consistent and Effective Manager Involvement Is Needed in Examinations of Large Businesses (Reference
Number 2004-30-054, dated February 2004).
                                                                                                         Page 5
                 Examinations of Partnerships Often Do Not Follow All Procedures
                 Required by the Tax Equity and Fiscal Responsibility Act of 1982



techniques, we believe our results indicate a concern nationwide because the examinations were
conducted from geographically dispersed IRS offices. Moreover, the IRS officials who
evaluated our case reviews agreed with the problems identified.
We found, for example, two cases for which examiners should have used TEFRA statutory and
administrative procedures to initiate and conduct the examinations, but the information in the
case files indicated non-TEFRA examination procedures were used. Consequently, there was no
documentation in the case files that the partnerships and their partners received the notices they
were entitled to under the tax law, and, had there been any assessments, such assessments may
not have been valid. In both instances, the examinations resulted in no change to the partnership
and the partners’ tax liabilities. In another 25 cases, the Form 2848 did not contain required
information that allows examiners to disclose tax return information to individuals or
organizations designated by the partnership. The IRM instructs examiners that it is imperative to
complete the Form 2848 correctly or risk making improper disclosures of tax information. As
summarized in Figure 1, we also identified other problems in our case reviews, including
issuance of the Letter 1787 well after examinations had started and partnership records had
been examined.
  Figure 1: Description of Problems in 60 Partnership Examinations Reviewed
                        and the Potential Risk to the IRS
                                                                                                     Number
                       Problem Description                                  Potential Risks          of Cases
                                                                                                       (a)
   1. Minimum tests were not documented to determine if                ¾ Invalid tax assessments
      non-TEFRA statutory and administrative procedures should                                           33
                                                                       ¾ Taxpayer rights violation
      be used to examine the partnership.
   2. Necessary checks were not documented in case files to            ¾ Invalid tax assessments
      ensure the TMP was qualified to represent the partnership for
                                                                       ¾ Barred assessment
      tax matters arising from the examination.
                                                                         statutes                        23
                                                                       ¾ Improper disclosure of
                                                                         tax information
   3. Form 2848 did not contain required information that allows       ¾ Barred assessment
      disclosure of tax return information to designated individuals     statutes
      or organizations.                                                                                  25
                                                                       ¾ Improper disclosure of
                                                                         tax information
   4. Letters 1787 were not correctly issued. Case files did not       ¾ Invalid tax assessments
      contain evidence that notices were mailed to the TMP, and                                          31
                                                                       ¾ Taxpayer rights violation
      some were issued after partnership records were examined.

(a) The total number of cases will add to more than 60 because some cases contained multiple problems.
Source: Analysis of 60 closed partnership return examinations.


                                                                                                              Page 6
                 Examinations of Partnerships Often Do Not Follow All Procedures
                 Required by the Tax Equity and Fiscal Responsibility Act of 1982



The Standards for Internal Control in the Federal Government specify that control activities are
the policies, procedures, techniques, and mechanisms that enforce management’s directives. In
short, controls ensure actions are taken to minimize risks. We applied these standards in
evaluating the problems in the partnership examinations and determined a combination of factors
contributed to the concerns identified in our case reviews. Steps can be taken at both the
examiner and quality control levels to provide better assurance that required procedures are
followed, thereby minimizing the risks outlined in Figure 1.

Examiners need to take better advantage of IRS resources when conducting
partnership examinations
As previously discussed, many of the examination case files we reviewed were not documented
to show that statutory and administrative procedures were properly followed when the
examinations were initiated. Although managers were involved in 92 percent of the cases we
reviewed, their involvement was not effective in identifying and correcting inadequately
documented files or cases for which required procedures were not followed.
We used the 4 IRS job aids outlined in Figure 2 to review the 60 cases in our sample. While the
IRM does not specifically require that examiners use the job aids, the aids are readily accessible
to examiners online through the IRS Intranet. We saw limited documentation in case files that
these resources were used by either examiners or their managers.

          Figure 2: IRS Job Aids for Initiating Partnership Examinations in
                 Accordance With Statutory and Administrative Procedures
  1. TEFRA Partnership Criteria Checklist and Flowchart. The list and chart solicit answers from
     examiners to questions that, if followed, will correctly determine whether the partnership examination
     should be conducted under TEFRA or non-TEFRA statutory procedures.
  2. TMP Checklist. The seven-page checklist is designed to be completed concurrently with interviewing
     the identified TMP for each tax year under examination. The checklist can be a valuable tool for
     ensuring specific requirements of the statute are met with respect to the TMP’s designation and
     qualifications.
  3. TEFRA Procedures Checklist and Flowchart. The list and chart provide a summary of the sequential
     steps to complete in properly initiating a TEFRA examination. They also provide important references
     to applicable sections of the IRM where more detailed instructions can be located.
  4. TEFRA Form 2848 Instructional Guide. The document illustrates how to properly prepare a
     Form 2848 for completion when working with a TMP in a TEFRA examination. The document
     additionally cautions examiners that improperly completed Forms 2848 can lead to disclosures issues
     and barred assessments.

Source: The IRM and the IRS TEFRA Intranet site.

Requiring the use of IRS job aids can provide a reliable and consistent method for directing and
guiding examiners and their managers through all phases of the partnership examination process.

                                                                                                              Page 7
               Examinations of Partnerships Often Do Not Follow All Procedures
               Required by the Tax Equity and Fiscal Responsibility Act of 1982



At the same time, using these job aids can significantly minimize the risks associated with not
following TEFRA statutory and administrative procedures.

Quality controls could be strengthened
IRS guidelines require both the LMSB and SB/SE Divisions to review a sufficient sample of
closed examinations through their respective quality measurement systems. From
October 1, 2003, through December 31, 2005, the LMSB Division quality measurement staff
evaluated whether examiners followed TEFRA procedures in 88 applicable examinations and
identified concerns similar to those we identified in our case reviews. However, reviews
performed by the SB/SE Division quality measurement staff do not include evaluating how well
examiners are adhering to TEFRA procedures, even though the SB/SE Division conducts the
majority of partnership examinations for the IRS. Consequently, management may not be aware
of the procedural problems in TEFRA examinations.
The errors identified in our case reviews and the reviews conducted by the LMSB Division
quality measurement staff raise questions about how well examiners and first-line managers are
being held accountable for following required procedures. Prior to our review, the LMSB
Division recognized the need to better hold its examiners and managers accountable for properly
documenting work and introduced an Administrative Procedures Standard (APS) to its quality
measurement system in March 2003. While the APS does not specifically address TEFRA
procedures, it does require examiners and managers to provide documentation that the many
non-TEFRA statutory and administrative procedures were followed in planning, initiating,
conducting, and closing examinations.
Documentation supporting that the non-TEFRA procedures were followed is captured on the
Administrative Procedures Standard Input Document (Form 13327), which is evaluated by the
LMSB Division quality measurement staff and is reproduced, in part, in Appendix IV. The Form
13327 is required to be completed during the course of every examination, self-certified by
examiners and managers that listed procedures were followed, and included in case files so it can
be used in subsequent managerial reviews.
Modifying the APS to cover TEFRA procedures and requiring first-line manager involvement in
the self-certification process could provide a mechanism for enhancing accountability and better
ensuring case files are documented to show TEFRA procedures were followed. At the same
time, incorporating the APS in the SB/SE Division quality measurement system could increase
assurances that TEFRA procedures are followed in all partnership examinations.




                                                                                           Page 8
              Examinations of Partnerships Often Do Not Follow All Procedures
              Required by the Tax Equity and Fiscal Responsibility Act of 1982



Recommendations
Recommendation 1: The Director, Quality Assurance and Performance Management,
LMSB Division, should add TEFRA examination procedures to the LMSB Division APS and
related Form 13327.
       Management’s Response: The IRS agreed with this recommendation. The LMSB
       Division will revise Form 13327 to cover TEFRA examination procedures by adding the
       question “Was the TEFRA checksheet included in the case file?” to the Form.
Recommendation 2: The Commissioners, LMSB and SB/SE Divisions, should initiate
actions needed to revise the IRM so examiners are required to complete, and include in
partnership examination case files, appropriate TEFRA job aids.
       Management’s Response: The IRS agreed with this recommendation. The SB/SE
       and LMSB Divisions will issue a joint interim guidance memorandum instructing
       examiners to complete and include an updated TEFRA Procedures Check List in the
       partnership examination case files. If necessary, the Divisions will begin the process to
       revise the IRM procedures to include such procedures.
Recommendation 3: The Director, Examination, SB/SE Division, should incorporate an
evaluation of how well examiners are complying with TEFRA examination procedures in
reviews conducted under the SB/SE Division quality measurement system.
       Management’s Response: The IRS agreed with this recommendation. The SB/SE
       Division will strengthen quality controls by evaluating how well examiners are adhering
       to TEFRA examination procedures and developing guidelines to assist TEFRA reviewers
       in conducting their evaluations.
Recommendation 4: The Director, Examination, SB/SE Division, should implement a
process, such as required use of the APS and Form 13327, that will better hold examiners and
their managers accountable for following TEFRA procedures and that can be monitored through
the SB/SE Division quality measurement system.
       Management’s Response: The IRS agreed with this recommendation. The SB/SE
       Division will supplement TEFRA lead sheets used by examiners with a revised TEFRA
       Procedures Check List that will require managers and examiners to provide
       documentation showing TEFRA procedures were followed. Additionally, evaluations
       conducted by TEFRA reviewers will be provided to upper-level management.




                                                                                           Page 9
                 Examinations of Partnerships Often Do Not Follow All Procedures
                 Required by the Tax Equity and Fiscal Responsibility Act of 1982



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether examinations initiated under the
Tax Equity and Fiscal Responsibility Act of 1982 (TEFRA)1 were conducted in accordance with
statutory and administrative procedures. Except as noted otherwise, we used judgmental
sampling techniques due to time and resource constraints. To accomplish the objective, we:
I.      Reviewed a significant amount of source material to gain an understanding of the
        statutory and administrative procedures involved with partnership examinations. These
        sources included the Internal Revenue Code; the United States Treasury Regulations;
        court cases; and the Internal Revenue Service (IRS) Internal Revenue Manual, job aids,
        memoranda, Audit Technique Guides, and training materials.
II.     Used the Government Accountability Office Standards for Internal Control in the
        Federal Government2 to identify and assess the management controls that the IRS
        established to help examiners meet their responsibility for complying with the statutory
        and administrative procedures when initiating partnership examinations.
III.    Used the IRS Audit Information Management System3 to select a judgmental sample of
        60 partnership return examinations out of the 2,441 partnership return examinations that
        were closed between October 1, 2003, and June 30, 2005, and determined if the
        examinations were initiated in accordance with statutory and administrative procedures.
        In selecting our sample cases, we excluded Coordinated Industry4 partnership
        examinations because different techniques are used in these examinations.
IV.     Reconciled the judgmental sample of 60 partnership return examinations to the IRS Audit
        Information Management System and verified that the examinations were in fact closed
        between October 1, 2003, and June 30, 2005.




1
  Pub. L. No. 97-248, Title IV, Section 402(a), 96 Stat. 648.
2
  GAO/AIMD-00-21.3.1, dated November 1999.
3
  The Audit Information Management System stores and maintains data on tax return examinations.
4
  A Coordinated Industry examination warrants the application of team examination procedures and techniques.




                                                                                                       Page 10
              Examinations of Partnerships Often Do Not Follow All Procedures
              Required by the Tax Equity and Fiscal Responsibility Act of 1982



V.     Evaluated documentation from the quality measurement systems of the Large and
       Mid-Size Division and Small Business/Self-Employed Division to determine if
       evaluations were made that assessed how well examiners complied with the statutory and
       administrative procedures when initiating partnership examinations.
VI.    Reviewed IRS Data Books, which annually provide information on a broad base of tax
       administration subjects, to identify trends in partnership return filings.
VII.   Reviewed the IRS Table 37, Examination Program Monitoring, reports for Fiscal Years
       2003 through 2005 to identify the number of TEFRA examinations of partnerships with
       11 more partners that were closed each year.




                                                                                     Page 11
              Examinations of Partnerships Often Do Not Follow All Procedures
              Required by the Tax Equity and Fiscal Responsibility Act of 1982



                                                                              Appendix II

                 Major Contributors to This Report

Dan Devlin, Assistant Inspector General for Audit (Small Business and Corporate Programs)
Kyle Andersen, Director
Preston Benoit, Acting Director
Frank Dunleavy, Audit Manager
William Tran, Lead Auditor
Stanley Pinkston, Senior Auditor
Debra Mason, Auditor
Ali Vaezazizi, Auditor




                                                                                     Page 12
             Examinations of Partnerships Often Do Not Follow All Procedures
             Required by the Tax Equity and Fiscal Responsibility Act of 1982



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Quality Assurance and Performance Management, Large and Mid-Size Business
Division SE:LM:Q
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
      Commissioner, Large and Mid-Size Business Division SE:LM
      Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 13
       Examinations of Partnerships Often Do Not Follow All Procedures
       Required by the Tax Equity and Fiscal Responsibility Act of 1982



                                                          Appendix IV

Administrative Procedures Standard Input Document




                                                                 Page 14
Examinations of Partnerships Often Do Not Follow All Procedures
Required by the Tax Equity and Fiscal Responsibility Act of 1982




                                                          Page 15
   Examinations of Partnerships Often Do Not Follow All Procedures
   Required by the Tax Equity and Fiscal Responsibility Act of 1982



                                                      Appendix V

Management’s Response to the Draft Report




                                                             Page 16
Examinations of Partnerships Often Do Not Follow All Procedures
Required by the Tax Equity and Fiscal Responsibility Act of 1982




                                                          Page 17
Examinations of Partnerships Often Do Not Follow All Procedures
Required by the Tax Equity and Fiscal Responsibility Act of 1982




                                                          Page 18
Examinations of Partnerships Often Do Not Follow All Procedures
Required by the Tax Equity and Fiscal Responsibility Act of 1982




                                                          Page 19
